No. 19-1333
IN THE

Supreme Court of the United States
____________________

MONSTER ENERGY COMPANY, FKA
HANSEN BEVERAGE COMPANY,
Petitioner,
v.

CITY BEVERAGES, LLC, DBA
OLYMPIC EAGLE DISTRIBUTING,
Respondent.
____________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
____________________
BRIEF OF JAMS, INC. AS AMICUS CURIAE IN
SUPPORT OF PETITIONER
____________________
KELLY WOODRUFF
Counsel of Record
ANNA-ROSE MATHIESON
CALIFORNIA APPELLATE LAW GROUP LLP
96 Jessie Street
San Francisco, CA 94105
(415) 649-6700
kelly.woodruff@calapplaw.com

i
TABLE OF CONTENTS
Page
INTEREST OF AMICUS CURIAE .......................... 1
INTRODUCTION AND SUMMARY OF
ARGUMENT ......................................................... 3
ARGUMENT ............................................................. 5
I.

Allowing Vacatur of a Final Arbitration
Decision by Applying New Disclosure
Requirements Retroactively to Create a
Presumption of Bias Undermines the
Public Policy Goals of Neutral and Final
Dispute Resolution. ....................................... 5

II. Allowing Vacatur of a Final Arbitration
Award Without Any Showing of Evident
Partiality Undermines the Public Policy
Goals of Neutral and Final Dispute
Resolution. ..................................................... 9
CONCLUSION ........................................................ 13

ii
TABLE OF AUTHORITIES
CASES
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011).............................................. 5
Commonwealth Coatings Corp. v. Cont’l
Cas. Co,
393 U.S. 145 (1968).......................................... 5, 6
Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612 (2018).......................................... 5
Hall Street Assocs., LLC v. Mattel, Inc.,
552 U.S. 576 (2008).............................................. 5
Wasyl, Inc. v. First Boston Corp.,
813 F.2d 1579 (9th Cir. 1987)............................ 12
STATUTES
9 U.S.C. § 10 .............................................................. 5
9 U.S.C. § 11 .............................................................. 5
Cal. Code Civ. Proc. § 1281.9 .................................... 6
RULES
AAA Comm. Arb. R. R-17 ......................................... 6
ABA/AAA Code of Ethics for Arbitrators
in Comm. Disputes, Canon II .............................. 6
ADR Servs. R. 12 ....................................................... 6
Cal. Rules of Court Ethics Standard 1 ..................... 6
Cal. Rules of Court Ethics Standard 7 ..................... 6
JAMS Comp. Arb. R. 15 ............................................ 6
Judicate W. Comm. Arb. R. 5 ................................... 6
Revised Uniform Arbitration Act, § 12..................... 6

iii
TABLE OF AUTHORITIES
(continued)

Page

OTHER AUTHORITIES
Andrea Cann Chandrasekher & David
Horton, Arbitration Nation: Data
from Four Providers,
107 Cal. L. Rev. 1 (Feb. 2019) ............................. 9

BRIEF OF JAMS, INC. AS AMICUS CURIAE
IN SUPPORT OF PETITIONER
The undersigned respectfully submits this amicus
curiae brief in support of the petition for writ of certiorari. 1
INTEREST OF AMICUS CURIAE
Founded in 1979, JAMS, Inc. is the world’s largest
private alternative dispute resolution (“ADR”) provider, annually administering over 15,000 arbitrations, mediations, and reference proceedings throughout the country. JAMS currently has approximately 400 neutrals, and approximately one-third of
those neutrals have a small ownership interest in the
organization.
The key to JAMS’s and any ADR service provider’s
success is providing fair, neutral dispute resolution,
and in the context of arbitrations, providing reasoned,
final decisions that put an end to the parties’ dispute.
To fulfill the policy goals of neutral arbitration—and
ensure that unhappy litigants cannot easily unravel
a final award so arbitration remains an efficient and
final dispute resolution process—numerous statutes,
rules, and canons of ethics have been promulgated to
guide the scope of required arbitrator disclosures.
No counsel for any party authored this brief in whole or in
part, no party or party’s counsel made a monetary contribution
intended to fund the preparation or submission of this brief, and
no person or entity, other than the amicus curiae or its counsel,
made a monetary contribution to the preparation or submission
of this brief. Amicus notified the parties of their intention to file
this brief more than ten days before the due date, and all parties
provided consent to the filing of this brief.
1

2
JAMS provides disclosures that meet or exceed all
such standards.
The Ninth Circuit’s decision creates two new disclosure requirements for potential arbitrators affiliated with an ADR provider conducting arbitrations
within that Circuit, which were not found in any of
the statutes, rules, standards, or cases: (1) whether
the arbitrator has an ownership interest in the ADR
provider, however small; and (2) whether the ADR
provider has engaged in more than “nontrivial” business dealings with any of the parties. Despite a complete lack of evidence that this information is related
in any way to an arbitrator’s potential bias, the Ninth
Circuit then applied these new disclosure requirements retroactively to vacate a final arbitration
award merely because, according to the decision, the
information created some possible “specter” of impartiality.
Although JAMS has always refrained from supporting or opposing challenges made by parties to the
arbitral process or to specific arbitration awards,
JAMS has an interest in this case because the Ninth
Circuit’s ruling risks undermining the key benefits of
the arbitration system: efficiency, neutrality, and finality. JAMS submits this brief to assist the Court in
understanding why clear guidelines are needed on
what a party must establish to show “evident partiality” of an arbitrator meriting vacatur of a final arbitration award.

3
INTRODUCTION
AND SUMMARY OF ARGUMENT
This case is the first time that JAMS has ever filed
an amicus brief in its forty-plus year history. JAMS
is a neutral ADR provider that has always refrained
from supporting or opposing challenges to the arbitral
process or arbitration awards. Yet the Ninth Circuit’s
decision is so harmful to efficient commercial arbitration, and so incorrect in its factual assumptions, that
JAMS concluded it had no choice but to take this extraordinary step, first at the rehearing level before
the Ninth Circuit and now before this Court.
The Ninth Circuit’s decision requires that a potential arbitrator affiliated with an ADR provider such
as JAMS make two new disclosures that were never
previously required by any of the legislation and
standards governing arbitration disclosures in the
Circuit, and that go well-beyond existing disclosure
requirements mandated by other Circuits and states
within the Circuit. In and of itself, there is nothing
wrong with requiring additional disclosures prior to
selecting an arbitrator. But the Ninth Circuit did not
apply its newly-announced disclosure requirements
only prospectively. It applied its new disclosure requirements retroactively to vacate a final award because of the arbitrator’s failure to comply with these
previously not-required disclosures. And it did so
without requiring any showing that the information,
had it been disclosed, established the arbitrator’s evident partiality as that phrase has been interpreted by
other courts throughout the country.
The Ninth Circuit decision upends the Congressionally-mandated limitation on vacatur and, in the

4
process, undermines the key policy purpose of commercial arbitration: to provide an efficient, neutral,
and final resolution of commercial disputes. If allowed to stand, the ruling will open the floodgates to
unhappy litigants asserting post-hoc claims of nondisclosure of ever-expanding information to assert that
the arbitrator must have been biased, without any
showing that the non-disclosed information created
any reasonable appearance of partiality at all. This
creates uncertainty about the finality of any arbitration award issued in this Circuit, and, as noted in the
dissenting opinion, “[t]he result will be to prolong disputes that both parties have already spent tremendous amounts of time and money to resolve.” Pet.
App. 25a (dissent).
This Court should therefore grant certiorari to
provide guidance to the lower courts on what an aggrieved party must show to vacate an arbitration decision based on an arbitrator’s “evident partiality.”
Without such guidance, lower courts are free to craft
their own standards for vacatur and allow parties to
escape final arbitration decisions based on nothing
more than a “specter of partiality,” as the Ninth Circuit did here.

5
ARGUMENT
I.

Allowing Vacatur of a Final Arbitration
Decision by Applying New Disclosure Requirements Retroactively to Create a Presumption of Bias Undermines the Public
Policy Goals of Neutral and Final Dispute
Resolution.

Congress passed the Federal Arbitration Act
(“FAA”) nearly a hundred years ago “in response to
widespread judicial hostility to arbitration agreements.” AT&T Mobility LLC v. Concepcion, 563 U.S.
333, 339 (2011). The FAA reflects “Congress’s judgment” that arbitration provides “quicker, more informal, and often cheaper resolutions for everyone involved.” Epic Sys. Corp. v. Lewis, 138 S. Ct. 1612,
1621 (2018). By design, arbitration decisions are subject to narrowly-circumscribed judicial review, and
can only be vacated based on the exclusive grounds
set forth in Sections 10 and 11. Hall Street Assocs.,
LLC v. Mattel, Inc., 552 U.S. 576, 586 (2008) (the FAA
allows vacatur only for “extreme arbitral conduct”).
One such ground is “where there was evident partiality or corruption in the arbitrators.” 9 U.S.C.
§ 10(a)(2) (italics added).
This Court interpreted the evident partiality
standard fifty years ago in Commonwealth Coatings
Corp. v. Cont’l Cas. Co, 393 U.S. 145 (1968). The
Court held that potential arbitrators must disclose to
the parties any personal or professional relationships
or significant business dealings he or she has had
with a party that might create an impression of bias,
and failure to disclose such information may result in
vacatur of a final arbitration decision. Id. at 149-50.

6
In the years since Commonwealth, numerous statutes, rules, and canons of ethics have been promulgated to guide the scope of required arbitrator disclosures. 2 These statutes and rules all require proposed
arbitrators to disclose if they have (1) any financial or
personal interest in the parties or outcome of the arbitration, (2) any financial, business, or personal relationships with any of the parties, and (3) previously
mediated or arbitrated for any of the parties and the
outcome of any such cases. The disclosed information
provides parties with the information they need to vet
the proposed neutral and to either accept or reject the
appointment before the parties invest time and
money into the arbitral process. Thus, extensive disclosures required before an arbitrator is selected protect not only the finality of the award, but also the legitimacy of the process itself.
The Ninth Circuit’s decision expands arbitrators’
disclosure requirements beyond anything found in existing law. Although none of the existing statutes,
rules, or standards require an arbitrator affiliated
with an ADR provider to disclose information about
the ADR provider’s prior dealings with a party in commercial arbitrations, the Ninth Circuit’s decision requires that arbitrators in the Circuit now disclose, in
addition to information about their own interests in
and relationships to the parties or the proceeding,
See, e.g., Revised Uniform Arbitration Act, § 12 (adopted
by several states throughout the country); Cal. Code Civ. Proc.
§ 1281.9(a); ABA/AAA Code of Ethics for Arbitrators in Comm.
Disputes, Canon II; Cal. Rules of Court Ethics Standards,
Standards 1(a), 7 (d)(10), (11); JAMS Comp. Arb. R. 15 (h); AAA
Comm. Arb. R. R-17(a); ADR Servs. Arb. R. 12; Judicate W.
Comm. Arb. R. 5.A.4.b.
2

7
(1) whether they have any equity interest in the ADR
provider administering the arbitration, no matter
how small, and (2) whether the ADR provider had previously engaged in “nontrivial business dealings” with
any of the parties at any time in the past. 3 Pet. App.
14a, 17a.
The problem with the decision, however, is not
that it creates more disclosure obligations. The problem is that the decision allows a losing party to overturn an arbitration decision based on the arbitrator’s
failure to disclose information that no statute, rule, or
opinion previously required to be disclosed. And it allows parties to do so without any showing that the information, had it been disclosed, established a reasonable appearance of the arbitrator’s partiality at all. If
allowed to stand, the decision invites disappointed
parties in the Ninth Circuit to seek to unravel virtually any arbitration award, based on a post-hoc claim
of nondisclosure—even though, as in this case, no
statute, rule, or opinion required such a disclosure
when the arbitrator was selected. See Pet. App. 22a23a (dissent) (providing examples of disclosures that
are not specifically required by the majority opinion,
but which a party could claim after-the-fact should
have been disclosed).

The Ninth Circuit’s decision does not put any limit on how
far back the disclosures must go. As it reads, the opinion requires the ADR provider to disclose how many matters the provider has ever administered for a party, even if it was 30 years
ago and long before the arbitrator became affiliated with the provider. It is hard to imagine how that information would shed
any light on whether the potential arbitrator might have some
bias in favor of a party.
3

8
For example, assume a potential arbitrator discloses an ownership interest in his or her administrating organization and that the organization (not the
arbitrator) had previously mediated ten cases with a
party, but both parties nonetheless accept that arbitrator. If at any time during the pending arbitration,
the arbitrator makes a ruling the party does not like
or issues an award the party is unhappy with, that
party can claim that additional information was not
disclosed in an effort to have the arbitrator disqualified or the award vacated. 4 If the unhappy party
learns that the ADR provider has administered more
than ten cases involving the opposing lawyers, can the
party obtain vacatur? If the party learns that the provider has administered more than ten cases involving
any attorney in the opposing law firm, can the party
obtain vacatur? As Judge Friedland noted in her dissent, “this slippery slope may have no bottom.” Pet.
App. 25a (dissent).
This is not at all speculative. Parties in pending
and final arbitration proceedings in states in the
Ninth Circuit have already begun requesting additional information from JAMS, beyond what is required by the decision or existing rules (including personal financial information of the arbitrator), seeking
Although one would think there would be a waiver issue if
the party did not seek to learn the information or object to the
arbitrator before agreeing to him or her, the Ninth Circuit also
foreclosed that possibility. See Pet. App. 6a-9a (holding that, despite disclosing his economic interest in JAMS’s financial success and disclosing that Monster Energy had arbitrated other
matters with JAMS, Olympic Eagle lacked notice that the arbitrator’s “economic interest” in JAMS was an ownership interest,
and therefore there was no waiver).
4

9
some basis to challenge the arbitrator or the final
award.
The Court should grant certiorari so, at a minimum, it can establish guidelines for what information
must be disclosed and what non-disclosures may give
rise to an appearance of evident partiality.
II.

Allowing Vacatur of a Final Arbitration
Award Without Any Showing of Evident
Partiality Undermines the Public Policy
Goals of Neutral and Final Dispute Resolution.

The Ninth Circuit’s decision was based on an assumption that if a neutral has an ownership interest
in an ADR provider that has administered more than
a “trivial” number of matters for a party, the neutral
intrinsically has a financial incentive to rule in favor
of the purported “repeat player.” The majority
adopted a “repeat player” bias theory which posits
that the provision of prior services by a neutral or an
ADR provider alone creates an impression of bias in
future matters for the “repeat player.” Pet. App. 15a.
But, although there have been studies purportedly
showing such a bias, the studies all involve mandatory consumer and employment arbitration where the
consumer or employee has no power to negotiate the
forum for any future arbitration, not commercial arbitration between sophisticated parties. See Andrea
Cann Chandrasekher & David Horton, Arbitration
Nation: Data from Four Providers, 107 Cal. L. Rev. 1,
6-7 & n.32-34 (Feb. 2019).
Moreover, by making an assumption of repeatplayer bias, the Ninth Circuit’s decision allows an unhappy litigant to obtain vacatur of an arbitration

10
award without any evidence of actual or even potential bias, and even if the evidence is contrary. This
case is a great example.
Prior to being selected, the arbitrator disclosed:
“Each JAMS neutral, including me, has an economic
interest in the overall financial success of JAMS.”
Pet. App. 4a. He also disclosed his involvement in two
arbitrations involving Monster Energy as a party, one
that he had decided against Monster Energy and a
pending one where he had been selected as the arbitrator, and he advised the parties they “should assume that one or more of the other neutrals who practice with JAMS has participated in [a] … dispute resolution proceeding with the parties … in this case and
may do so in the future.” Id. The arbitrator did not,
however, disclose the total number of arbitrations
JAMS had administered involving Monster Energy in
the past using other neutrals (97 over approximately
13 years). 5
The Ninth Circuit held that these disclosures were
insufficient. The court held that the arbitrator’s ownership interest in JAMS, coupled with the number of
cases JAMS had previously administered involving
Monster Energy, necessarily meant that the arbitrator had an appearance of bias. But the court’s conclusion was based on the assumption that the arbitrator’s ownership interest in JAMS was “sufficiently
substantial” and an assumption that JAMS and Monster had engaged in “nontrivial business dealings” in
the past, while acknowledging there was nothing to
The Ninth Circuit stated that JAMS had administered 97
arbitrations for Monster “over the past five years,” Pet. App.
11a, but that was inaccurate.
5

11
support those assumed facts. The court then concluded that these two “facts” created a presumption of
bias requiring vacatur. Pet. App. 11a-12a.
The Ninth Circuit’s assumptions were not based
on any evidence in the record and were in fact inaccurate. At JAMS, a neutral’s income is not affected in
any material way by the amount of business a party
has done with the organization, whether the neutral
is an owner or not. As recognized by Judge Friedland’s dissent, “arbitrators are hired and paid by the
parties for whom they conduct private arbitrations.”
Pet. App. 19a (dissent). Therefore, although an
owner-neutral receives a very small percentage of the
firm’s total revenues, 6 the vast majority of a neutral’s
compensation, whether an owner or not, is derived directly from work performed on matters over which
they preside. There simply is no material relationship between an owner-neutral’s income and the ADR
provider’s amount of prior business with a party.
Further, even if a neutral’s ownership interest in
an ADR provider was more significant than it is at
JAMS, there is no basis for the Ninth Circuit’s presumption that the neutral necessarily would favor a
“repeat player.” Though it should go without saying,
revenue generated through service as a neutral
No owner-neutral has ever received more than one-tenth of
one percent of JAMS’s total revenue ($100 for every $100,000 of
revenue) in a single year, and that small revenue share is untethered to the revenue from any specific party, lawyer, or law
firm. Moreover, the revenue attributable to any one party in a
given time period, even a “repeat player,” is a small fraction of
the organization’s total revenues. For example, in the 13-year
period in which JAMS administered 97 arbitrations involving
Monster, it administered approximately 127,785 total cases.
6

12
and/or as a sponsoring organization is not dependent
upon delivering a specific outcome; quite the opposite.
JAMS neutrals do not receive financial credit or bonuses for the creation or retention of customer relationships, nor any financial reward if a party returns
to JAMS for a subsequent matter. Indeed, to ensure
arbitrators can provide decisions that are neutral,
they are provided immunity. See Wasyl, Inc. v. First
Boston Corp., 813 F.2d 1579, 1582 (9th Cir. 1987).
Like judicial immunity, arbitral immunity “protect[s]
the decision-maker from undue influence and protect[s] the decision-making process from reprisals by
dissatisfied litigants.” Id. And while every neutral,
regardless of ownership status, has a financial interest in being asked to arbitrate a subsequent matter
for a party, that does not lead to favoritism of one
party over the other because the arbitrator benefits if
either party requests his or her services in the future.
This case is a prime example, since the specific arbitrator had decided the only other case he arbitrated
against Monster Energy.
In sum, there is simply no factual or record basis
to assume that any ownership interest in an arbitration provider creates any potential bias in favor of any
party, even a “repeat player.” To the contrary, every
neutral, regardless of ownership status, has the same
interest in providing high quality neutral services so
that even losing parties or their counsel will consider
their appointment in other matters.
This Court should grant certiorari to provide guidance on what a party must actually prove to establish
“evident partiality” meriting vacatur of a final arbitration decision.

13
CONCLUSION
For all these reasons and those set out in the petition, the Court should grant certiorari to provide guidance to the lower courts on what an aggrieved party
must show to vacate an arbitration decision based on
an arbitrator’s “evident partiality.”

Respectfully submitted,
KELLY WOODRUFF
Counsel of Record
ANNA-ROSE MATHIESON
CALIFORNIA APPELLATE LAW GROUP LLP
96 Jessie Street
San Francisco, CA 94105
(415) 649-6700
kelly.woodruff@calapplaw.com

June 2020

